No.
IN THE

LEZMOND CHARLES MITCHELL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent
On Application for Stay
CERTIFICATE OF SERVICE

I, Celeste Bacchi, a Deputy Federal Public Defender in the Office of the
Federal Public Defender who was appointed as counsel for Petitioner under the
Criminal Justice Act, 18 U.S.C. ยง 3006(A)(b), hereby certify that on August 23,
2020, a copy of EMERGENCY APPLICATION FOR A STAY OF EXECUTION
was sent electronically and mailed postage prepaid to:
//
//

Krissa Lanham, Assistant U.S. Attorney
Krissa.Lanham@usdoj.gov
William G. Voit, Assistant U.S. Attorney
William.Voit@usdoj.gov
Office of the U.S. Attorney
Two Renaissance Square
40 N. Central Avenue, Suite 1800
Phoenix, Arizona 85004-4449
Jeffrey B. Wall, Acting Solicitor General
Brian C. Rabbitt, Acting Assistant Attorney General
Jenny C. Ellickson, Attorney
U.S. Department of Justice
Civil Division, Room 7230
950 Pennsylvania Avenue, NW
Washington D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
All parties required to be served have been served. I declare under penalty of
perjury under the laws of the United States of America that the foregoing is true
and correct.
Executed on August 23, 2020, at Los Angeles, California.

/s/ Celeste Bacchi
CELESTE BACCHI*
Deputy Federal Public Defender
Attorneys for Petitioner
LEZMOND CHARLES MITCHELL
*Counsel of Record

